MASTERCARD
CREDIT CARD ACCOUNT OPENING DISCLOSURE
F1
®

This Disclosure is incorporated into and becomes part of your LOANLINER Consumer Credit Card Agreement.
Please keep this attached to your LOANLINER Consumer Credit Card Agreement.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances
Paying Interest

For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

13.55%
F2
This APR will vary with the market based on the Prime Rate.
13.55%
F3
This APR will vary with the market based on the Prime Rate.
13.55%
F4
This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases and balance transfers
if you pay your entire balance by the due date each month. We will
begin charging interest on cash advances on the transaction date.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

1.00%
F5

of each transaction in U.S. dollars

Up to F6
$30.00
Up to F7
$30.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See
your account Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account Agreement.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Rush Fee
Card Replacement Fee

or the amount of the required minimum payment, whichever
$30.00
is less, if you are ten or more days late in making a payment.
or the amount of the required minimum payment, whichever
$30.00
is less.
$30.00
$5.00

Collection Costs: You agree to pay all costs of collecting the amount you owe under this Agreement, including court
costs and reasonable attorney's fees.
Periodic Rates:
The Purchase APR is 13.55%
F12
which is a daily periodic rate of 0.0371%
F13
.
The Balance Transfer APR is 13.55%
F14
which is a daily periodic rate of 0.0371%
F15
.
The Cash Advance APR is 13.55%
F16
which is a daily periodic rate of 0.0371%
F17
.

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

DTXTR4 (MXC453 CCM003)-e

SEE NEXT PAGE for more important information about your account.

Variable Rate:
The ANNUAL PERCENTAGE RATE is subject to change semi-annually on the first day of the billing cycle to reflect any
change in the Index and will be determined by the Prime Rate as listed in the “Money Rates” section of The Wall Street
Journal on the first business day of January and July, to which we add a margin. Any increase in the ANNUAL
PERCENTAGE RATE will take the form of additional payments shown as Total Minimum Payments on the statement. If
the Index is no longer available, the Credit Union will choose a new index which is based upon comparable information.
Margin:
Purchases will be charged at 10.30%
F18
above the Index.
Balance Transfers will be charged at 10.30%
F19
above the Index.
Cash Advances will be charged at F20
10.30% above the Index.

DTXTR4 (MXC453 CCM003)-e

